CERTIFICATE OF SERVICE
No. TBD
Philippe Buhannic
Petitioner(s)
v.
New York Supreme Court, New York County
Respondent(s)
Being duly sworn, I depose and say under penalty of perjury:
I am a pro se party who is Petitioner in this matter. On the undersigned date, I caused to be
served through my filing partner Supreme Court Press, the parties in the above captioned matter with
the Philippe Buhannic Petition for Extraordinary Writ of Mandamus to the New York
Supreme Court, New York County, three (3) true and correct copies of the same by USPS Priority
mail, postage prepaid for delivery to the following addresses:
Marcy Friedman
New York Supreme Court, Manhattan
60 Center Street
New York, NY 10007
(646) 386-3600
Judge, New York Supreme Court,
New York County

John M. Vassos
Morgan, Lewis & Brockius LLP
101 Park Avenue
New York, NY 10178-0060
(212)309-6158
Counsel for Related Party Tradingscreen Inc.

Philippe Buhannic
Petitioner Pro Se
65 Central Park West, Unit 17 A
New York, NY 10023
(917) 716-3542
December 24, 2019

